                                              EMPLOYEE BENEFITS
                                              SECURITY ADMINISTRATION

Office of Inspector General—Office of Audit




                                              EBSA COULD MORE EFFECTIVELY EVALUATE
                                              ENFORCEMENT PROJECT RESULTS




                                                                     Date:         March 31, 2009
                                                                    Report Number: 05-09-003-12-001
U.S. Department of Labor                                    March 2009
Office of Inspector General
Office of Audit                                             EBSA Could More Effectively Evaluate
                                                            Enforcement Project Results

BRIEFLY…                                                    WHAT OIG FOUND
Highlights of Report Number: 05-09-003-12-001 to the        With its current performance measurement process,
Acting Assistant Secretary for Employee Benefits            EBSA could not (1) effectively measure outcomes of its
Security.                                                   civil enforcement projects or (2) demonstrate that it
                                                            allocated civil enforcement resources to areas of
WHY READ THE REPORT                                         highest impact on its mission.
The Employee Retirement Income Security Act of 1974
(ERISA) was enacted to protect pension, health, and         EBSA could not evaluate the outcome of its civil
other employee benefit plans of American workers. In        enforcement projects because it did not clearly define
2008, there were more than 6 million plans, involving       project goals relative to its mission and it did not
150 million workers and $6 trillion in assets.              measure the impact of project results on its mission.
                                                            While EBSA described each of its enforcement projects,
                                                            it did not clearly define the intended outcome of each
The Department of Labor’s Employee Benefits Security
                                                            project.
Administration (EBSA) works to protect the integrity of
these employee benefit plans and ensure that
employees receive promised benefits. Specifically,          EBSA benchmarked its individual civil enforcement
EBSA develops related policies and regulations,             projects using the same measure it reports under the
educates plan participants and plan officials about their   Government Performance and Results Act for its overall
rights and responsibilities, and deters and corrects        civil enforcement program. It also tabulated several
violations through civil and criminal enforcement           indicators of internal activity such as monetary results,
programs.                                                   staff days expended per case, and the number of civil
                                                            cases converted to criminal cases (i.e., outputs).
EBSA administers its civil enforcement program through      However, none of these indicators measured external
broad enforcement initiatives that it implements through    events or conditions (i.e., outcomes). Thus, EBSA could
a collection of National and regional enforcement           not demonstrate the impact of these projects on its
projects.                                                   overall mission to deter and correct ERISA violations. In
                                                            addition, EBSA could not show that it used enforcement
Demonstrating the achievement of program results and        project outcomes to direct enforcement efforts to areas
the effective use of resources requires clear program       of highest impact on its mission.
goals and the measurement of program results in
relation to those goals.                                    WHAT OIG RECOMMENDED
                                                            We recommended that the Acting Assistant Secretary
WHY OIG CONDUCTED THE AUDIT                                 for Employee Benefits Security require EBSA to
The OIG conducted a performance audit of EBSA’s             (1) better define the objective of each of its civil
processes for evaluating its civil enforcement project      enforcement projects; (2) establish performance
results. The audit was designed to answer the following     indicators that evaluate each civil enforcement project’s
question: Is EBSA effectively evaluating its civil          results versus the stated objective; and (3) develop
enforcement project results and directing its resources     guidance for allocating enforcement resources based
to enforcement issues that have a significant impact on     on intended civil enforcement outcomes and actual
American workers’ health, pension, and other employee       performance results.
benefits?
                                                            EBSA agreed that the objective of each of the national
                                                            enforcement projects could be clearer and agreed to
READ THE FULL REPORT
                                                            expand its public description of the national
To view the report, including the scope, methodology,       enforcement projects.
and full agency response, go to:
                                                            However, EBSA views its current results indicators and
http://www.oig.dol.gov/public/reports/oa/2009/05-09-        guidance on resource allocation as adequate.
003-12-001.pdf
                                                       U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective 1 — Does EBSA effectively evaluate its civil enforcement project
results and direct its resources to enforcement issues that have a significant
impact on American workers’ health, pension, and other employee benefits?....... 3
          Finding 1 – EBSA could not effectively evaluate outcomes of its civil
             enforcement projects....................................................................................... 3
          Finding 2 – EBSA could not clearly demonstrate it directed its resources to
             the areas with the most impact...................................................................... 10

Recommendations ...................................................................................................... 13

Exhibits ........................................................................................................................ 15
          Exhibit 1 EBSA Civil Investigation GPRA Goal and Outcome FYs 2003 –
             2008 ............................................................................................................. 17
          Exhibit 2 Time Charged to Civil Enforcement Projects Cases Opened
             FYs 2006 – 2008........................................................................................... 19

Appendices.................................................................................................................. 21
          Appendix A Background ..................................................................................... 23
          Appendix B Objective Scope, Methodology, and Criteria ................................... 25
          Appendix C Acronyms and Abbreviations .......................................................... 27
          Appendix D EBSA Response to Draft Report ..................................................... 29




                                                                                       EBSA Evaluation of Project Results
                                                                                           Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
                                    Report No. 05-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




March 31, 2009

                        Assistant Inspector General’s Report



Alan Lebowitz
Acting Assistant Secretary
 for Employee Benefits Security
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The Office of Inspector General conducted a performance audit of the Department of
Labor‘s (DOL) Employee Benefits Security Administration’s (EBSA) Office of
Enforcement. EBSA protects the integrity of pensions, health plans, and other employee
benefits for more than 150 million Americans. The mission of EBSA is to assist workers
in obtaining information needed to exercise benefit rights; assist plan officials in
understanding the requirements of relevant statutes so they can meet legal
responsibilities; develop policies and regulations that encourage the growth of
employment-based benefits; and to deter and correct violations of relevant statutes
through strong administrative, civil, and criminal enforcement efforts to ensure workers
receive promised benefits. The Employee Retirement Income Security Act of 1974
(ERISA) was enacted to protect pension, health, and other employee benefit plans of
American workers. In 2008, there were more than 6 million plans, involving 150 million
workers and $6 trillion in assets.

Administration of ERISA is divided among EBSA, the Internal Revenue Service of the
Department of the Treasury (IRS), and the Pension Benefit Guaranty Corporation
(PBGC). EBSA is responsible for enforcing the fiduciary, reporting, and disclosure
provisions of ERISA. The IRS assures that pension, profit-sharing, and stock-bonus
plans meet requirements for established tax benefits. The PBGC provides insurance
coverage for defined benefit pension plans.

EBSA enforces Title 1 of ERISA which, in part, establishes participant rights and
fiduciaries’ duties.

The audit objective was to answer the following question: Is EBSA effectively evaluating
its civil enforcement project results and directing its resources to enforcement issues
that have a significant impact on American workers’ health, pension, and other
employee benefits?



                                                                   EBSA Evaluation of Project Results
                                             1                         Report No. 05-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General


SCOPE

We examined the current process of identifying and selecting enforcement cases in
EBSA’s National headquarters and regional and district offices. We reviewed the
resources expended and the results identified in EBSA’s civil enforcement cases either
opened or closed in FYs 2006, 2007 and 2008.

We interviewed EBSA enforcement management personnel, Office of Management and
Budget (OMB) staff, and the DOL Performance Officer to discuss their expectations and
perceptions regarding EBSA’s performance measurement efforts. We also interviewed
IRS Employee Plan staff to discuss their ERISA related enforcement measurement
practices and compared their applicability to EBSA.

Further, we obtained EBSA enforcement data and performed data analysis on data for
FYs 2006, 2007, and 2008. We also reviewed information from external sources
including OMB and EBSA consultants.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audits to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provided a reasonable basis for our findings and conclusions based on our audit
objectives.

RESULTS IN BRIEF

With its current performance measurement process, EBSA could not (1) effectively
evaluate outcomes of its civil enforcement projects or (2) clearly demonstrate that it
directed civil enforcement resources to areas with the most impact on its mission.

EBSA could not evaluate the outcome of its civil enforcement projects because project
goals were not clearly defined relative to its mission and EBSA did not measure impact
of project results on its mission. While EBSA described each of its enforcement
projects, it did not clearly define the intended outcome of each project. EBSA
benchmarked its individual civil enforcement projects using the same measure it reports
under GPRA for its overall civil enforcement program. It also tabulated several
indicators of internal activity such as monetary results, staff days expended per case,
and the number of civil cases converted to criminal cases (i.e., outputs). None of these
indicators measured external events or conditions (i.e., outcomes). Thus, EBSA could
not demonstrate the impact of these projects on its overall mission to deter and correct
ERISA violations. In addition, EBSA could not show that it used enforcement project
outcomes to direct enforcement efforts to areas of highest impact on its mission.

EBSA believes its current indicators are adequate for measuring results and that
attempting to develop true outcome measures would be too expensive, resource
intensive, and of limited use.


                                                             EBSA Evaluation of Project Results
                                             2                   Report No. 05-09-003-12-001
                                           U. S. Department of Labor – Office of Inspector General


We recommended the Acting Assistant Secretary for Employee Benefits Security
require EBSA to (1) clearly define the objective of each of its civil enforcement projects;
(2) establish performance indicators that evaluate each civil enforcement project’s
outcomes versus the stated objective; and (3) develop guidance for allocating
enforcement resources based on intended civil enforcement outcomes and actual
performance results.

RESULTS AND FINDINGS

Objective 1 — Does EBSA effectively evaluate its civil enforcement project results
              and direct its resources to enforcement issues that have a
              significant impact on American workers’ health, pension, and other
              employee benefits?

Finding 1 – EBSA could not effectively evaluate outcomes of its civil enforcement
            projects.

EBSA could not evaluate the outcomes of its civil enforcement projects. Specifically,
EBSA had not (1) clearly defined the intended outcomes of individual enforcement
projects or (2) developed project performance indicators of external rather than internal
results. EBSA management believes that its use of a variety of performance indicators
enables them to effectively evaluate the performance of its enforcement projects.
However, with its current benchmarks, EBSA cannot determine whether its civil
enforcement projects are increasing ERISA compliance and decreasing the risk that
employee benefits will be lost.

GPRA, which was enacted to systematically hold Federal agencies accountable for
achieving program results, guides the Federal performance measurement process.
GPRA stresses the establishment of goals and the measurement of program outcomes 1
as a means of effective program management. In response to GPRA, DOL established
department-wide performance goals in its strategic plan and has maintained and
updated these goals since 1998. Within this framework, EBSA worked with OMB and
specialized consultants to develop and implement performance reporting for its various
functions, including civil enforcement. EBSA has periodically modified its performance
measurement in an effort to improve it. The current measure, adopted in 2007,
computes “closed cases with a fiduciary correction” as a percentage of the total closed
civil enforcement cases.

                              EBSA Civil Enforcement Measure

                             Closed cases with fiduciary corrections
                                Closed civil enforcement cases



1
 OMB Circular A-11 defines outcomes as “the intended results of carrying out a program and relate to
conditions external to the agency.”

                                                                    EBSA Evaluation of Project Results
                                                   3                    Report No. 05-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General


EBSA administers its civil enforcement program through broad enforcement initiatives
that it implements through a collection of National and regional enforcement projects.
Although GPRA does not require agencies to establish performance goals and
measures at an individual project, doing so facilitates and supports development of the
required overall performance measures. EBSA used a variety of quantitative indicators
to evaluate its individual civil enforcement projects, including internal activity such as
monetary results, staff days expended per case, and the number of civil cases
converted to criminal cases (i.e., outputs). None of these indicators measured external
events or conditions (i.e., outcomes). Thus, EBSA could not demonstrate the impact of
these projects on its overall mission to deter and correct ERISA violations.

Moreover, as discussed in the following sections, the individual projects did not have
clearly defined objectives and the measures and indicators did not provide an ability to
assess the project’s success in relation to either EBSA’s overall enforcement goal or a
specific project goal.

Employee Contribution Project (ECP) focuses on the timely deposit of participant
contributions, which EBSA described in the following manner:

       . . . an aggressive enforcement project intended to safeguard employee
       contributions to 401(k) plans and health care plans by investigating
       situations in which employers delay forwarding employee contributions
       into these plans. In some cases, employers do not promptly forward the
       contributions to the appropriate funding vehicle. In other cases, the
       employer simply converts the contributions to other uses, such as
       business expenses. Both scenarios may occur when the employer is
       having fiscal problems and turns to the plan for unlawful financing.

As described above, and in other EBSA internal documents we reviewed, the project’s
annual and long-term annual goals are not clear. In addition, EBSA measured its ECP
project performance by its outputs rather than its outcomes. While EBSA extensively
analyzed ECP results, it reported the performance as cases with corrected fiduciary
violations as a percentage of all closed cases, the same ratio as the overall GPRA
measure. This measure did not gauge impact. For example, equal weight was given to
all violations resulting in a dollar recovery. In addition, violations in large plans were
equal to violations in small plans.

This measure did not clearly relate the results of the ECP project with EBSA’s overall
mission to deter and correct ERISA violations and enhance the security of employee
benefits. These performance indicators did not demonstrate that the ECP project had a
positive impact on the problem of delayed contributions in the employee benefit plan
universe.

Overall, we believe EBSA should better relate its intended ECP project outcomes and
its performance indicators to its mission.



                                                             EBSA Evaluation of Project Results
                                             4                   Report No. 05-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General


Employee Stock Ownership Plans (ESOPs) – According to EBSA:

      ESOPs are designed to invest primarily in employer securities. Due to
      their unique nature, ESOPs can have distinct violations, as well as
      violations that might occur in any employee benefit plan. One of the most
      common violations found is the incorrect valuation of employer securities.
      This can occur when purchasing, selling, distributing, or otherwise valuing
      stock. Other issues involve the failure to provide participants with the
      specific benefits required or allowed under ESOPs, such as voting rights,
      ability to diversify their account balances at certain times, and the right to
      sell their shares of stock when received.

There was no clear correlation to EBSA’s mission or description of ESOP’s intended
outcomes.

Our discussion with EBSA regional directors and staff disclosed conflicting views of the
ESOP objectives. Some investigators and managers referred to the ESOP project as
being complex and important cases, but others regarded the results largely as
“technical violations” which did not yield direct benefit to plan participants.

Furthermore, while EBSA monitored the ESOP project in detail, it reported the
performance of the ESOP project in the same manner as the overall GPRA measure:
cases with corrected fiduciary violations as a percentage of all closed cases. This does
not relate to EBSA’s overall mission or show the impact of the ESOP project on the
employee benefit plan universe.

In addition, this performance indicator may discourage the initiation of complex cases
such as in the ESOP project. These cases may be time consuming and require
extensive ERISA knowledge. A case involving large monetary amounts may involve a
single fiduciary violation and be counted the same as an ECP case which are generally
much more simple.

As shown in the following table, the ESOP project had only 548 cases in our time period
while the ECP project had nearly 4,000—seven times the volume of case as ESOP. In
contrast, ESOPs, with over 13 percent of the caseload of ECPs, had more than ten
times the monetary recoveries, averaging $2.3 million in recoveries per case while ECP
cases averaged about $29,000 in monetary results per case.




                                                            EBSA Evaluation of Project Results
                                            5                   Report No. 05-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General



                Monetary Recoveries by National Emphasis Project

                                                                   Monetary
                             Number of
                   Project                Monetary Result($)      Results/Case
                              Cases
                                                                      ($)
                   ESOP             548          1,280,283,804        2,336,284
                   REACT            518            125,387,518          242,061
                    ECP           3,951            116,396,399           29,460
                   MEWA             119             58,914,543          495,080
                    CAP               9                35,447             3,939
                    Total        5,145          1,581,017,711        307,292
                 Source: EBSA EMS database, closed cases in FYs 2006 – 2008

We recognize that monetary results are not the only, or even the most important,
indicators of success for all projects. However, EBSA could not point out which
indicators it used to judge the success of each project. We concluded that EBSA should
better relate its intended ESOP project outcomes and its measurements to its mission.

Rapid ERISA Action Team (REACT) – EBSA stated:

      Under REACT, EBSA responds to employer bankruptcies by ensuring that
      all available legal actions have been taken to preserve pension plan
      assets. When a plan sponsor faces severe financial hardship, the assets
      of any plans and the benefits of participants are placed at great risk.
      …Under REACT, when a company has declared bankruptcy, EBSA takes
      immediate action to ascertain whether there are plan contributions which
      have not been paid to the plans' trust, to advise all affected plans of the
      bankruptcy filing, and to provide assistance in filing proofs of claim to
      protect the plans, the participants, and the beneficiaries. EBSA also
      attempts to identify the assets of the responsible fiduciaries and evaluate
      whether a lawsuit should be filed against those fiduciaries to ensure that
      the plans are made whole and the benefits secured.

While this project statement did describe a clear objective to protect plan participants,
EBSA did not relate measurement of its results to this objective. As with the other
projects, the outcomes of the REACT project were measured in the same manner as
the overall GPRA measure: cases with corrected fiduciary violations as a percentage of
all closed cases. There was no measurement of the success in protecting the rights and
benefits of plan participants.

Consultant/Advisor Project (CAP) – EBSA newest National Project will:

      … focus on the receipt of improper, undisclosed compensation by pension
      consultants and other investment advisers. EBSA’s investigations will
      seek to determine whether the receipt of such compensation violates

                                                                 EBSA Evaluation of Project Results
                                             6                       Report No. 05-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General


       ERISA because the adviser/consultant used its position with a benefit plan
       to generate additional fees for itself or its affiliates. EBSA may also need
       to investigate individual plans to address such potential violations as
       failure to adhere to investment guidelines and improper selection or
       monitoring of the consultant or adviser. The CAP will also seek to identify
       potential criminal violations, such as kickbacks or fraud. Although the
       project is focused primarily on the indirect and undisclosed compensation
       of pension consultants and advisers, a related objective is to determine
       whether fiduciaries understand the compensation and fee arrangements
       into which they enter.

These goals do not address intended overall impact on ERISA compliance, nor
do they address how EBSA intends for this project to deter these violations from
occurring. EBSA measured the results of the CAP project in the same manner as
the overall GPRA measure: cases with corrected fiduciary violations as a
percentage of all closed cases.

This measure does not gauge impact. Again, a CAP case, which yielded a large dollar
recovery, counted in the measurement the same as an ECP case that closed with a
small monetary recovery. A violation affecting a small plan counted the same as a
violation affecting a large plan. This did not relate to EBSA’s overall mission or show the
impact of the CAP project on the employee benefit plan universe.

Multiple Employer Welfare Arrangements (MEWAs) – EBSA’s description of this
project’s objective was to:

       Emphasize… abusive and fraudulent MEWAs created by unscrupulous
       promoters which sell the promise of inexpensive health benefit insurance,
       but default on their obligations.

       EBSA continues to find instances where MEWAs have been unable to pay
       claims as a result of insufficient funding and inadequate reserves, or in the
       worst situations, where they were operated by individuals who drained the
       MEWA's assets through excessive administrative fees or by outright theft.

While this goal is related to EBSA’s overall mission of deterring ERISA violations, the
success of this project was measured the same as the overall GPRA measure: cases
with corrected fiduciary violations as a percentage of all closed cases. This neither
measured the number of individuals EBSA prevented from serving as fiduciaries or
service provider, nor how many participants EBSA protected.

Regional Enforcement Activities – Outside the National Projects, EBSA allowed regional
offices the flexibility to pursue specific issues through regional initiatives and other
regional activities. EBSA’s regional enforcement initiatives and activities, however, also
lacked clear goals with clearly defined, objectively measurable outcomes that relate to
these goals and to EBSA’s overall mission.


                                                             EBSA Evaluation of Project Results
                                             7                   Report No. 05-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General


We believe the lack of clear project annual and long-term intended outcomes has
caused differing priorities and management decisions in the regional offices.

Without clearly defined intended project outcomes, EBSA did not have a target against
which to measure actual results. Therefore, EBSA could not demonstrate that it
accomplished its intended outcomes.

According to EBSA management, EBSA considered many means of measuring
outcomes and could not develop program outcome measurements with existing
resources. They stated EBSA hired consultants and worked with OMB to develop
existing output measures as indicators of performance and further stated OMB’s
acceptance of their current measures demonstrated OMB’s approval of this approach.

OMB officials stated that they had accepted EBSA’s performance measures but would
prefer outcome measures. OMB has not disapproved output performance measures
government-wide but recognizes they are not indicative of program performance.
Instead, OMB continues to work with Federal agencies to better measure outcomes.

Furthermore, EBSA did conduct extensive data analysis on a continuing basis and held
quarterly management meetings with regional directors to discuss priorities, results and
future actions. Also, EBSA has used outside consultants to perform extensive data
analysis on EBSA’s enforcement results to determine the best sources for finding
violations and to improve targeting of plans for investigation. EBSA management
believed it has an in-depth understanding of it enforcement results.

Despite providing extensive data analysis and management attention to its projects,
EBSA still relied on internal data to judge the effectiveness of its enforcement projects
and the overall enforcement program. In the absence of more comprehensive outcome
measures of its enforcement results, we do not believe EBSA can effectively judge
whether it is improving plan compliance and increasing the safety of employee benefit
plans.

GAO reported a similar viewpoint on EBSA’s lack of a comprehensive outcome
measure. In a 2007 report on EBSA’s enforcement program, GAO stated:

       … EBSA has not systematically estimated the nature and extent of
      pension plans’ noncompliance, a fact that limits the agency’s ability to
      assess overall industry compliance with ERISA and measure the
      effectiveness of its enforcement program.

Furthermore, the regional directors interviewed generally did not find the current project
benchmarks useful and some felt they actually hindered effective management. Several
of the regional directors we spoke with said that the GPRA measure influenced project
benchmarks affected the number and type of investigations their office initiated and that
they must direct their staff to complete investigations that will help them obtain project
benchmarks. This may mean doing easier cases, such as ECP cases where violations


                                                            EBSA Evaluation of Project Results
                                            8                   Report No. 05-09-003-12-001
                                    U. S. Department of Labor – Office of Inspector General


are plentiful, although monetary recoveries are small and any other benefits were not
clearly defined.

In order to establish potential best practices in performance measurement, we
interviewed IRS Employee Plan staff to discuss their ERISA-related enforcement
measurement practices and reviewed published documents pertaining to the IRS
employee plan enforcement function.

We found that the IRS had developed outcome measures for their enforcement
program. The IRS segregated its employee benefit plan universe into market segments
and performed baseline studies to identify non-compliance rates in each market
segment. It also uses an overall Employee Plan Compliance rate which is the ratio of
plans with no significant compliance issues to the total number of IRS approved private
retirement plans:



                             IRS Employee Plan Compliance Rate

        EP Compliance Rate = _____Plans with no significant compliance issues______
                                  Total number of IRS-approved private retirement plans




IRS estimates this rate through an ongoing research program, which uses audits of a
random sample of plans to assess risks, by market segment. Because this rate is very
costly to compute on a continual basis, the IRS is transitioning to validation of each
market segment as an ongoing and continuous effort, based on the historical data.

According to EBSA management, they have continued to improve their measurement of
enforcement success. Within the last three years, EBSA had changed the overall GPRA
goal to specify closed fiduciary cases with corrections and had applied this measure to
each of its National projects. Moreover, EBSA management conveyed that they had
studied ways to better measure outcomes and had worked extensively with outside
experts and OMB to develop better measures, to no avail. EBSA management also
stated that the IRS plan universe is different than EBSA’s and could not be compared.

We believe that EBSA needs to (1) more clearly establish annual and long-term goals
and outcomes for its enforcement projects and, (2) establish outcome measures to
demonstrate whether these goals are accomplished. This would enable EBSA to better
judge the accomplishments of its project objectives and its overall mission and
demonstrate these program accomplishments to Congress and the public.




                                                           EBSA Evaluation of Project Results
                                           9                   Report No. 05-09-003-12-001
                                                 U. S. Department of Labor – Office of Inspector General


Finding 2 – EBSA could not clearly demonstrate it directed its resources to the
            areas with the most impact.

EBSA could not clearly demonstrate it was directing its resources to the enforcement
areas with the most impact on its mission. The EBSA regional offices differed in their
interpretation of program impact and desired outcomes, resulting in differing allocation
of resources among the regional offices. This occurred because EBSA Headquarters
did not provide clear guidance on intended enforcement outcomes. GPRA and
Executive Order 13450 emphasize that agencies should apply taxpayer resources in a
manner that maximizes the effectiveness of Government programs. Therefore, in as
much as regional offices applied resources according to varying interpretations of
intended outcomes, EBSA needs to demonstrate that it is directing resources to
enforcement areas with the most impact.

EBSA’s activities fall within DOL’s strategic goal to “Strengthen Economic Protection”
which states the goal is to:

      Protect and strengthen worker economic security through … securing
      pension and health benefits.

EBSA’s civil enforcement mission is to “deter and correct ERISA violations”. To
accomplish this, EBSA administered its civil enforcement program through broad
enforcement initiatives that are implemented through National and regional enforcement
projects. However, with its existing performance measurements, EBSA could not clearly
demonstrate that its resources were directed toward areas that had the most impact.

For example, in 2007, EBSA reported monetary results of $1.5 billion and 69% of closed
cases had a fiduciary violation corrected. In accomplishing this, as shown in the
following graph, EBSA directed 38 percent of its direct enforcement resources to its
ECP project.
                                     EBSA Allocation of Staff Resources
                                   Civil Enforcement Cases Closed in 2007




                                   Other Regional                 Other Active
                                      Activity                  National Projects
                                   (Non-Project)                      16%
                                       25%




                                Regional Initiatives
                                      13%                          ECP
                                       Inactive National           38%
                                           Projects
                                              8%




        Source: EBSA EMS Database of Closed Cases, FYs 2006 - 2008. Staff resources include
        time charged in 2007 and previous years for each case.

                                                                                    EBSA Evaluation of Project Results
                                                           10                           Report No. 05-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General


However, it is unclear whether EBSA based this level of resource allocation on potential
impact of the ECP project in deterring ERISA violations or enhancing employee benefit
security. While using 38 percent of the civil enforcement staff resources in FY 2007, the
ECP project only had $38 million in monetary benefits from closed cases or
approximately 3 percent of the total. Clearly, it is not monetary impact that the ECP
accomplishes. While the ECP project did have a corrected fiduciary violation rate of 82
percent, it is not known if overall ERISA violations related to delayed contributions
increased or decreased or if participants were better off at all. EBSA could not clearly
demonstrate how this allocation of resources served to accomplish its overall mission.

In contrast, the ESOP project produced almost $499 million in monetary recoveries in
2007, but EBSA only devoted 10 percent of its National project time to the ESOP
project. EBSA could not clearly demonstrate the outcome of allocating this proportion of
time to the project.

We recognize monetary recoveries are not the only indicator of a case’s impact.
According to EBSA management, other non-monetary impacts are important, including
enjoining fiduciaries from plan management, ensuring bonding adequacy, correcting
health law violations and improving disclosures to participants. However, as noted
earlier, EBSA has not measured the overall impact of the ECP project on the issue of
delayed contributions. Therefore, while significant resources have been devoted to the
ECP, EBSA has not clearly shown this is an area of high impact.

The following table shows the number of civil enforcement cases with non-monetary
(fiduciary and non-fiduciary) violations for each National project:

                Civil Enforcement Cases with Non-Monetary Violations
                          By National Project, FYs 2006 – 2008

                                                                          Percentage of
                                Cases with One or
                                                                         Cases with Non-
        National Project        More Non-Monetary        All Cases      Monetary Results
                                     Results                            within each project

  Employee Contribution Project
                                      1,649               3,951               42%
             (ECP)
   Employee Stock Ownership
                                       245                 548                45%
         Plans (ESOP)
            REACT                      185                 518                36%
      Health Fraud/MEWA                 63                 119                53%
   Consultant/Advisor Project
                                        1                   9                 11%
             (CAP)
              Total                   2,143               5,145               42%
Source: EBSA EMS Database, FYs 2006 -2008 closed cases

As can be seen above, the percentage of non-monetary or non-fiduciary results within
ECP cases overall (42%) is lower that for ESOP (45%) and MEWA (53%). Further, as
noted earlier, ECP cases, on average, yield low monetary results. Based on these


                                                             EBSA Evaluation of Project Results
                                             11                  Report No. 05-09-003-12-001
                                                           U. S. Department of Labor – Office of Inspector General


factors, it is not clear why EBSA allocated such a high share of its resources to ECP.
EBSA explained that the ECP project covered 401(k) plans, which are the most
numerous type of pension plan, high rate of fiduciary violations, and that EBSA
allocated its resources accordingly. However, this does not relate the results of the ECP
project to EBSA’s overall mission. Specifically, EBSA could not demonstrate that the
ECP project furthered EBSA’s mission to deter ERISA violations and enhance the
security of employee plan benefits.

Furthermore, the Regions viewed the risk and benefit of the various projects and
enforcement areas differently. In the case of the ECP project, regional offices varied
widely in their perspective of ECP results and resulting allocation of resources. In our
interviews with regional directors and staff, we found that all generally considered the
issue of delayed contributions to be a problem but opinions varied on the potential
impact. Some considered the impact significant in that real money was returned to
participants. Others considered the violations involved to be minor in relation to other
enforcement areas and felt either benefit advisors or voluntary correction could handle
the issues. These differing views have resulted in varying efforts by the regions.

The following graph shows the level of effort by each region on National project cases
opened in FYs 2006 through 2008:


                                Regions Vary Widely in Allocation of Staff Resources
                                               on National Projects
    Share of National Project




                                100%
                                 80%
                                 60%
              Time




                                                                                                         CAP
                                 40%
                                 20%                                                                     REACT
                                  0%                                                                     MEWA
                                                                                                         ESOP
                                                           Ne g o
                                                      s




                                                              An a
                                            SF




                                                           ns a ti




                                                                         rk
                                       on




                                                                        ta




                                                                          s
                                                                        ty
                                                   la




                                                                       hi

                                                                       le



                                                                    Yo
                                                        Ph lan
                                                                     Ci




                                                                   ica
                                                        Ka inn
                                                    l
                                    st




                                                                                                         ECP
                                                                  ge
                                                                    lp
                                                 Da
                                  Bo




                                                                as




                                                               de
                                                                At
                                                                 c




                                                                w
                                                              Ch
                                                       n




                                                           il a
                                                    Ci




                                                           s
                                                        Lo




                                       By EBSA Regional Office Case Openings, FY 2006 - 2008



As can be seen, although delayed contributions is described as a nationwide problem
and past ECP results showed 68 percent non-compliance, individual Regions devoted
widely varying levels of effort to opening cases in this area— ranging from less than
50% to more than 80% of National project activity. EBSA could not clearly demonstrate
that the ECP problem was less severe in New York and Chicago, for example, where it


                                                                                  EBSA Evaluation of Project Results
                                                                 12                   Report No. 05-09-003-12-001
                                      U. S. Department of Labor – Office of Inspector General


devoted the lowest resource allocations to opening cases, than it was in Boston where it
allotted the largest share of resources for new cases opened.

Overall, with its current goals and performance measurement processes, EBSA could
not clearly demonstrate that it directed its resources to enforcement areas that have the
most impact in terms of its mission – deterring and correcting ERISA violations. This
occurred because EBSA has not provided clear guidance on intended outcomes. We
believe these are necessary steps for EBSA to demonstrate that it allocates its
resources appropriately. This is critical in how OMB, Congress and the American public
view the agency.

Recommendations

We recommend that EBSA:

   1. Clearly define the objective of each of its civil enforcement projects.

   2. Establish a performance measure(s) that evaluate(s) each civil enforcement
      project’s outcomes versus the stated objective

   3. Develop guidance for allocating enforcement resources based on intended
      enforcement outcomes and actual performance results.

EBSA Response

In its response, EBSA explained the design, management, and operation of EBSA’s
enforcement program. EBSA also described its efforts, and difficulties, in developing
meaningful GPRA goals and referred to other Federal agencies EBSA stated were
similar in enforcement responsibilities that also used output measures rather than
outcome measures. Overall, EBSA stated its civil enforcement GPRA measure was an
acceptable surrogate outcome performance measure.

As to Recommendation 1, EBSA agreed that the objective of each of the national
enforcement projects could be clearer. EBSA stated it would expand its public
description of the national enforcement projects to include a specific objective of “finding
and correcting violations of ERISA.” EBSA further stated that putting the public on
notice of its investigative emphases contributed to the goal of deterring violations of
ERISA.

EBSA disagreed with Recommendation 2. EBSA stated it had spent an enormous
amount of time trying to develop a meaningful and useful performance measure to
evaluate the civil enforcement program based on outcomes. Because this has proven
fruitless to date, EBSA uses a surrogate measure that it believes is widely recognized
as an acceptable alternative by experts in the performance management arena. EBSA
stated it had discovered early on that there is no practical outcome measure available,
and this infeasibility had been acknowledged repeatedly by external reviewers. EBSA

                                                             EBSA Evaluation of Project Results
                                             13                  Report No. 05-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General


further noted that the OIG’s draft report did not recommend an alternative outcome-
based performance measure for EBSA.

EBSA also disagreed with Recommendation 3. EBSA stated that the internal program
development guidelines provided to EBSA’s regional directors clearly stated that
EBSA’s enforcement program is mission-driven, a mission that is well known to each
regional director. EBSA further stated that all national enforcement projects are
implemented with the objective of furthering EBSA’s mission to deter and correct
violations of ERISA and that these projects are developed and continually evaluated by
EBSA management.

See Appendix D for EBSA’s entire response to our Draft report.

OIG Conclusion

While EBSA agreed with Recommendation 1 and proposed corrective action, we
believe EBSA needs to take further action. The addition of “finding and correcting
ERISA violations” only recognizes part of EBSA’s mission. It leaves out the deterring of
ERISA violations. With EBSA’s large universe of employee benefit plans and small
number of enforcement personnel, deterrence is a critical part of the mission and EBSA
should recognize it. This is a key element when determining how to measure the
success of a project. Also, “finding and correcting ERISA violations” may not be
appropriate for projects such as the REACT project where correction of a violation may
not be the primary objective.

As to recommendations 2 and 3, we did not recommend EBSA revise its overall GPRA
measuring and reporting processes. Rather, we recommend implementing clearer
objectives for its individual civil enforcement projects and then measuring the
accomplishment of those objectives. The current processes do not accomplish this, and
the use of duplicate GPRA measures as benchmarks for each project may be
hampering project accomplishments.

For example, if the intended goal of the ECP project is to reduce the number of delayed
employee contributions, EBSA should measure whether this is accomplished. This
could include use of a baseline for ECP or other methods. Under the present processes
and measurements, EBSA cannot demonstrate the project has had a positive impact.

We continue to believe EBSA should measure the outcomes of these projects in relation
to a clearly stated project objectives and use these outcomes to direct enforcement
resources.




Elliot P. Lewis


                                                            EBSA Evaluation of Project Results
                                           14                   Report No. 05-09-003-12-001
           U. S. Department of Labor – Office of Inspector General




Exhibits




                                  EBSA Evaluation of Project Results
                 15                   Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
               16                   Report No. 05-09-003-12-001
                          U. S. Department of Labor – Office of Inspector General


                                                                            Exhibit 1
 EBSA Civil Investigation GPRA Goal and Outcome
                 FYs 2003 – 2008


         Performance Goal 06-2.2C (EBSA)
    Secure Pension, Health, and Welfare Benefits
           Civil Investigation GPRA Goal


                                     Civil            Did EBSA
                   Civil         Investigation       Meet Their
   Fiscal      Investigation        GPRA                Civil
    Year          GPRA               Goal           Investigation
                   Goal             Results         GPRA Goal?


    2003            50%               69%                Yes

    2004            50%               69%                Yes

    2005            66%               76%                Yes

    2006            69%               74%                Yes

    2007            61%               69%                Yes


    2008            64%               70%                Yes



Note:   In FYs 2003 – 2006, this performance measure was the
        ratio of Civil Cases With Corrected Violations To All Civil
        Closed Cases.

        In FY 2007, this performance measure changed to the ratio
        of Civil Cases With Corrected Fiduciary Violations To All
        Civil Closed Cases




                                                     EBSA Evaluation of Project Results
                                 17                      Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
               18                   Report No. 05-09-003-12-001
                                                         U. S. Department of Labor – Office of Inspector General


                                                                                                                           Exhibit 2
                                 Time Charged to Civil Enforcement Projects
                                       Cases Opened FYs 2006 – 2008


                            National Enforcement Projects

                 CAP         ESOP          ECP          MEWA             REACT       Project Days       Project Days        Total Project
                                                                                     Charged to         Charged to          Days Charged
                                                                                     All National       All Other
                                                                                     Enforcement        Enforcement
               Days         Days         Days         Days              Days
                                                                                     Projects           Projects
               Charged      Charged      Charged      Charged           Charged
                                                                                     Percent of Total   Percent of Total
               Percent of   Percent of   Percent of   Percent of        Percent of   Days Charged       Days Charged
               Total Days   Total Days   Total Days   Total Days        Total Days   to National        to All Other
               Charged      Charged      Charged      Charged           Charged      Enforcement        Enforcement
Region                                                                               Projects           Projects

Philadelphia        241          806        2,922             161              401           4,531              3,891                8,422
                    3%           9%          35%              2%               5%             54%                46%                 100%

New York            771          541        1,712             165              627           3,816              6,216              10,032
                    8%           5%          17%              2%               6%             38%                62%                100%

Boston               62          595        7,078              47              296           8,078              6,674              14,752
                   <1%           4%          48%             <1%               2%             55%                45%                100%

Atlanta             609          891        4,925             414              713           7,552              7,773              15,325
                    4%           6%          32%              3%               4%             49%                51%                100%

Cincinnati          159        1,186        4,561             118              399           6,423              5,576              11,999
                    1%          10%          38%              1%               3%             53%                47%                100%

Chicago             517        1,117        2,953             381            1,035           6,003              4,054              10,057
                    5%          11%          29%              4%              10%             59%                41%                100%

Kansas               61        1,026        5,663             136            1,456           8,342              6,774              15,116
City               <1%           7%          37%              1%              10%             55%                45%                100%

Dallas               49          902        4,762             321              660           6,694              5,305              11,999
                   <1%           7%          40%              3%               6%             56%                44%                100%

San                 420          921        5,733             229              528           7,831              5,836              13,667
Francisco           3%           7%          42%              1%               4%             57%                43%                100%

Los                 598          461        2,760             255              419           4,493              2,725                7,218
Angeles             8%           6%          38%              4%               6%             62%                38%                 100%


     Note: Percentages have been rounded.




                                                                                         EBSA Evaluation of Project Results
                                                                   19                        Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
               20                   Report No. 05-09-003-12-001
             U. S. Department of Labor – Office of Inspector General




Appendices




                                    EBSA Evaluation of Project Results
                   21                   Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
               22                   Report No. 05-09-003-12-001
                                          U. S. Department of Labor – Office of Inspector General


                                                                                       Appendix A
Background

The Employee Retirement Income Security Act of 1974 (ERISA) was enacted to protect
pension, health, and other employee benefit plans of American workers. Currently, there
are more than 6 million plans, involving 150 million workers and $6 trillion in assets.

Administration of ERISA is divided among EBSA, the Internal Revenue Service of the
Department of the Treasury (IRS), and the Pension Benefit Guaranty Corporation
(PBGC). EBSA is responsible for enforcing the fiduciary, reporting, and disclosure
provisions of ERISA. The IRS assures that pension, profit-sharing, and stock-bonus
plans meet requirements for established tax benefits. The PBGC provides insurance
coverage for defined benefit pension plans.

In pursuing its mission, EBSA uses a combination of compliance assistance, voluntary
compliance, and enforcement. Enforcement actions, both civil and criminal, are intended
to deter and correct violations of ERISA and ensure workers receive promised benefits.
EBSA’s approximately 400 investigators rely on participant complaints, computer
analyses, published news reports, and referrals from other government agencies to
identify and initiate cases. Areas of emphasis are established through a series of
national and regional projects contained in annual Program Operating Plans. Each
region determines the distribution of its enforcement resources among these projects.
With more than 8,000 plans under its authority for every 1 investigator, it is critical that
EBSA direct its limited resources at areas with the most impact.

Congress enacted the Government Performance and Results Act of 1993 (GPRA) to
assist Federal managers in improving program effectiveness and efficiency.) GPRA
requires Federal agencies to develop and implement performance measures to
demonstrate program outcomes. GPRA defines an outcome measure as a quantitative
or qualitative “assessment of the results of a program activity compared to its intended
purpose. OMB Circular A-11 adds that an outcome measure “define[s] an event or
condition that is external to the program or activity and that is of direct importance to the
intended beneficiaries and/or the public.”

EBSA’s current performance measure for its civil enforcement program calculates the
percentage of closed cases that correct a fiduciary violation of ERISA. In
FYs 2006 - 2008, EBSA closed 10,277 civil enforcement cases involving more than
166,000 staff days, and resulting in $3.72 billion in plan assets being recovered or
safeguarded against loss. It reported that 69 percent and 70 percent of these cases
involved an ERISA fiduciary violation in FY 2007 and FY 2008, respectively. 2




2
  EBSA established new performance measures in 2007 to incorporate fiduciary corrections and thus data
for 2006 is not comparably reportable.

                                                                   EBSA Evaluation of Project Results
                                                 23                    Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
               24                   Report No. 05-09-003-12-001
                                        U. S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objective Scope, Methodology, and Criteria

Objective

Our audit was designed to address the following question:

Is EBSA effectively evaluating its civil enforcement project results and directing its
resources to enforcement issues that have a significant impact on American workers’
health, pension and other employee benefits?

Scope

We examined the current process of identifying and selecting enforcement cases in
EBSA’s National headquarters and regional and district offices. We reviewed the
resources expended and the results identified in EBSA’s civil enforcement cases either
opened or closed in FYs 2006, 2007 and 2008. We examined how these results were
used to direct future enforcement efforts.

We conducted our fieldwork at EBSA’s headquarters and the following regional offices:

Atlanta, Georgia
Boston, Massachusetts
Chicago, Illinois
Cincinnati, Ohio
Dallas, Texas
Kansas City, Missouri
Los Angeles, California
San Francisco, California
New York, New York
Washington, DC

We also visited district offices located in:

Miami, Florida
St. Louis, Missouri
Seattle, Washington

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. Our work on internal controls included obtaining
and reviewing policies and procedures, and interviewing key personnel. We gained an
understanding of the EBSA’s processes relative to our audit objectives and documented
a description of the controls. Our testing of internal controls focused only on the controls
related to our objectives of assessing compliance with significant laws, regulations, and



                                                               EBSA Evaluation of Project Results
                                               25                  Report No. 05-09-003-12-001
                                     U. S. Department of Labor – Office of Inspector General


policies and procedures. We did not intend to form an opinion on the adequacy of
internal controls overall, and we do not render such an opinion.

We conducted this performance audit in accordance with government auditing
standards. Those standards require that we plan and perform the audits to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provided a reasonable basis for our findings and conclusions based on our audit
objectives.

Methodology

We interviewed (a) EBSA enforcement management personnel in their National
headquarters, (b) regional offices, (c) districts, and (d) selected senior investigators
regarding their roles in identifying, selecting, and conducting civil enforcement cases.
We met with Office of Management and Budget (OMB) staff and the DOL Performance
Officer to discuss their expectations and perceptions regarding GPRA and EBSA’s
compliance. We also interviewed IRS Employee Plan staff to discuss their ERISA
related enforcement measurement practices and compared their applicability to EBSA.

In addition to interviews, we reviewed key EBSA documents including its (a)
Enforcement Manual; (b) Strategic Enforcement Plan of 2000 (STeP); (c) Program
Operating Plan directive (POP) issued in 2008; (d) the POPs submitted by EBSA’s ten
regional offices; (e) Case Opening and Results Analysis (CORA) for 2005 and (f)
Enforcement Results reports for 2007.

We also requested and received EBSA’s Enforcement Management System (EMS)
database of civil enforcement cases opened or closed in FYs 2006, 2007 and 2008. We
conducted quantitative and trend analyses of number of cases by enforcement activity,
regional office, monetary and non-monetary results, and other case characteristics.

To achieve our objectives we relied on computer-generated data contained in EBSA’s
EMS system. We assessed controls and conducted sufficient tests of the data and
found them to be adequate. Based on these tests, we concluded the data was
sufficiently reliable to be used in meeting the audit objectives.

Criteria

We used the following criteria to accomplish our audit:

      Government Performance and Results Act of 1993

      Executive Order 13450

      OMB Circular A-11

      Government Auditing Standards (Yellow Book), July 2007 Revision

                                                            EBSA Evaluation of Project Results
                                           26                   Report No. 05-09-003-12-001
                                U. S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations


CAP             Consultant Advisor Project

DOL             Department of Labor

ECP             Employee Contribution Project

EBSA            Employee Benefits Security Administration

ERISA           Employee Retirement Income Security Act of 1974

ESOP            Employee Stock Ownership Plan

GPRA            Government Performance and Results Act of 1993

IRS             Internal Revenue Service

MEWA            Multiple Employer Welfare Arrangement

OIG             Office of Inspector General

OMB             Office of Management and Budget

PBGC            Pension Benefit Guaranty Corporation

REACT           Rapid ERISA Action Team




                                                       EBSA Evaluation of Project Results
                                      27                   Report No. 05-09-003-12-001
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                EBSA Evaluation of Project Results
               28                   Report No. 05-09-003-12-001
                                U. S. Department of Labor – Office of Inspector General


                                                                          Appendix D
EBSA Response to Draft Report




                                                       EBSA Evaluation of Project Results
                                      29                   Report No. 05-09-003-12-001
U. S. Department of Labor – Office of Inspector General




                       EBSA Evaluation of Project Results
      30                   Report No. 05-09-003-12-001
U. S. Department of Labor – Office of Inspector General




                       EBSA Evaluation of Project Results
      31                   Report No. 05-09-003-12-001
U. S. Department of Labor – Office of Inspector General




                       EBSA Evaluation of Project Results
      32                   Report No. 05-09-003-12-001
U. S. Department of Labor – Office of Inspector General




                       EBSA Evaluation of Project Results
      33                   Report No. 05-09-003-12-001
U. S. Department of Labor – Office of Inspector General




                       EBSA Evaluation of Project Results
      34                   Report No. 05-09-003-12-001
U. S. Department of Labor – Office of Inspector General




                       EBSA Evaluation of Project Results
      35                   Report No. 05-09-003-12-001
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:



Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov
Telephone:   1-800-347-3756
             202-693-6999
Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
